        U.S. Department of the Interior
          Office of Inspector General




          ADVISORY REPORT




        EVALUATION OF THE PROCEDURES
   USED BY THE BUREAU OF LAND MANAGEMENT’S
    NATIONAL BUSINESS CENTER TO LEASE SPACE
     FOR THE KINGMAN, ARIZONA, FIELD OFFICE




December 2002                   No. 2003-I-0007
                                                                   C-IN-BLM-0130-2002


            United States Department of the Interior
                      OFFICE OF INSPECTOR GENERAL
                                 Central Region Audits
                               134 Union Blvd, Suite 510
                                 Lakewood, CO 80228


                                                                      December 10, 2002


                             EVALUATION REPORT

Memorandum

To:        Director, Bureau of Land Management

From:      Anne L. Richards
           Regional Audit Manager

Subject:   Evaluation of the Procedures Used by the Bureau of Land Management’s
           National Business Center to Lease Space for the Kingman, Arizona, Field
           Office (No. 2003-I-0007)

                                  INTRODUCTION
        This advisory report presents the results of our evaluation of the procedures used
by the Bureau of Land Management’s (BLM) National Business Center to lease space to
house the BLM’s field office in Kingman, Arizona. This evaluation was conducted at
your request. Our objective was to determine whether the National Business Center’s
space leasing procedures (1) complied with generally accepted leasing and contracting
practices to ensure full and open competition and (2) satisfied the Kingman field office
space requirement needs. Since FY 2001 BLM has been attempting to lease the needed
space, but for various reasons had to stop the process three times. We limited our review
to the current leasing process, which was advertised on July 12, 2001. We only reviewed
the current process as it superseded the previous cancelled attempts.

DISCUSSION
        We have concluded that the National Business Center’s leasing procedures for
this project complied with generally accepted leasing and contracting practices.
Although the final award of the contract has not been made, nothing came to our attention
that indicated the Kingman field office requirements would not be met in a cost conscious
and free and open environment.
        Based on our discussions with the Contracting Officer and our technical reviewer
plus a technical review of the Solicitation for Offers, we summarized the basic
requirements for procuring lease space and evaluated BLM’s procedures against those
general requirements. Overall, generally accepted leasing and contracting practices
require that there be no limiting restrictions of the solicitation, specifications, or technical
acceptability to ensure full and open competition among potential offerors. Our
conclusions regarding each step of the process are as follows:

    Space Requirements. The space requirement needs for the Kingman field office
    were established before being advertised, were adequately supported, and the
    approximate square footage of the space requirements had not been modified
    throughout the process.

    Advertisement. The National Business Center properly advertised the space
    requirement needs for the Kingman field office.

    Market Survey. The National Business Center’s Contracting Officer conducted an
    adequate market survey, and we verified that the requirements were uniformly
    applied on all properties proposed by interested parties.

    Solicitation for Offers. Based on the market survey results conducted by the
    Contracting Officer, a Solicitation for Offers was sent to offerors whose properties
    were determined to be acceptable to meet the Kingman field office’s space needs.
    The Contracting Officer also communicated to the offerors any reasons for properties
    determined to be unacceptable.

    Negotiation. The Contracting Officer is currently holding discussions with the
    offerors who, according to the Contracting Officer, are in a close competitive range,
    and he is evaluating the proposals made by each offeror. The Contracting Officer
    indicated that he would request each of the offerors to submit a best and final offer
    before he decides to whom to award the contract. This procedure complies with the
    Competition in Contracting Act that requires each agency to evaluate bids and
    proposals on the basis of factors specified in the solicitation and whose bid or
    proposal is most advantageous to the Government, considering the prices and other
    factors.

    Award Factors. The Contracting Officer stated that he would award the contract
    based on factors established in the Solicitation for Offers, primarily best price.

SCOPE, METHODOLOGY, AND STANDARDS
        We conducted our evaluation from September through December 2002 at the
National Business Center in Lakewood, Colorado, and at the Kingman field office in
Kingman, Arizona. We obtained a technical review of the requirements and
specifications of the current Solicitation for Offers; interviewed the Contracting Officer;
reviewed file documents provided by the Contracting Officer; verified the results of the


                                               2
market survey conducted by the Contracting Officer in Kingman, Arizona; and reviewed
the requirements established in the Competition in Contracting Act. A leasing expert
from another Departmental agency performed the technical review. Our evaluation was
performed in accordance with the President’s Council on Integrity and Efficiency Quality
Standards for Inspections.

        We wish to thank the BLM employees at the National Business Center and at the
Kingman field office for their cooperation in this evaluation. If you have any questions
regarding this matter, please feel free to contact me at (303) 236-9243. A response to this
report is not required.




                                            3
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free               800-424-5081
                             Washington Metro Area           202-208-5300
                             Hearing Impaired (TTY)          202-208-2420
                             Fax                             202-208-6081
                             Caribbean Region                340-774-8300
                             Northern Pacific Region         671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
